Cardmember Agreement for U.S. Bank National Association Visa® and
Mastercard® Classic, Gold and Platinum Accounts

This credit card program is issued and administered by U.S. Bank National Association. This information is accurate as of March 31,
2021. PLEASE NOTE that this information is provided for general information purposes only and is not specific to your Account. See
the Agreement that was provided for your Account and Card for more detailed information, including contact information.
PRICING INFORMATION: Actual pricing will vary from one Cardmember to another.
(APR = Annual Percentage Rate)
(DPR = Daily Periodic Rate)

Annual Percentage Rates for Purchases
This APR will vary with the Market based on
the Prime Rate.

Prime + 5.24% to Prime + 21.74%
(APR) 8.49% to 24.99%

(DPR) 0.023260% to 0.068466%

Annual Percentage Rates for Balance Transfers
This APR will vary with the Market based on
the Prime Rate.

Prime + 5.24% to Prime + 21.74%
(APR) 8.49% to 24.99%
(DPR) 0.023260% to 0.068466%

Annual Percentage Rates for Cash Advances
This APR will vary with the Market based on
the Prime Rate.

Prime + 20.24% to Prime + 22.74%
(APR) 23.49% to 25.99%
(DPR) 0.064356% to 0.071205%

This APR will not vary with the Market based
on the Prime Rate.

(APR) 20.99%
(DPR) 0.057507%

Penalty APR and When It Applies

There is no Penalty Rate for your Account.

Paying Interest

Your due date is 24-30 days after the close of each billing
cycle. We will not charge you interest on Purchases if you
pay your entire balance by the due date each month. We
will begin charging interest on Advances and Balance
Transf ers on the transaction date.
Minimum Interest Charge
If you are charged interest, then the Minimum Interest
Charge will be no less than $2.00.
To learn more about factors to consider when applying for or
For Credit Card Tips from the
Consumer Financial Protection Bureau using a credit card, visit the website of the Consumer
Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.
NOTICE: Some of these set-up and maintenance f ees will
Set Up and Maintenance Fees
be assessed before you begin using your Card and based
on your Credit Limit, your initial available credit will be less.

•
•

Annual Fee
Travel Fee

•

Balance Transf er Advance Fee

•

Convenience Check Advance Fee

•

Financial Institution Cash Advance
Fee
Cash Equivalent Advance Fee

Transaction Fees

•

You may still reject this Account, provided that you have not
yet used it or paid a fee after receiving a billing statement. If
you do reject the Account, you are not responsible f or any
f ees or charges.
$0 to $50
NONE
Either $5 to $10 or 3% of the Transfer or Advance amount,
whichever is greater (maximum fee (No Maximum)).
Either $5 to $10 or 3% of the Advance amount, whichever
is greater (maximum fee (No Maximum)).
Either $5 to $10 or 3% to 5% of the Advance amount,
whichever is greater (maximum fee (No Maximum)).
Either $10 to $20 or 4% to 5% of the Advance amount,
whichever is greater (maximum fee (No Maximum)).

•

Cash Advance Overdraft Protection
Fee
Cash Advance ATM Fee

•

Foreign Transaction Fee

•

NONE
Either $5 to $10 or 3% to 5% of the Advance amount,
whichever is greater (maximum fee (No Maximum)).
Up to 3% of each foreign transaction amount.

Account Fees
•
•
•

Late Fee
Overlimit Fee
Return Payment Fee

Up to $40
NONE
Up to $40

How We Will Calculate Your Balance: We use a method called “average daily balance (including new
purchases)”. See the Agreement for more details.
P. O. Box 6352
Fargo, ND 58125

Cardmember Agreement
This is a cardmember agreement and disclosure statement (“Agreement”) between
you and the Issuer containing the terms that will apply to your Credit Card Account
(“Account”) effective March 31, 2021. In this Agreement, “you”, “your" and
“Cardmember” means each individual accepting a solicitation or applying for the
Account or otherwise agreeing to be responsible for the Account. “We”, “us”, “our”,
and “the Issuer” means U.S. Bank National Association, the issuer of the Card and
your Account creditor. Please read this Agreement carefully and keep it in a safe
place to make the best use of the credit cards we issue with this Account (“Card”).
The Agreement becomes effective as soon as you or someone authorized by you
uses or activates the Card or Account. Even if the Card or Account has not been
used or activated, the Agreement becomes effective unless you contact us within
30 days after you receive the Card by calling the number on the back of the Card
to cancel your Account. This web Agreement does not replace the Agreement that
is provided with the Account and Card.
This Agreement contains an arbitration provision (including a class action
arbitration waiver). It is important that you read the entire Arbitration
Provision section carefully.
ACCOUNT FEATURES AND YOUR USE OF THE ACCOUNT
1. Personal Use: You may use the Account only for personal, family or household
purposes. Federal or state consumer protection laws may not apply if you use the
Account for other than personal, family or household purposes.
2. Purchases: You may use the Account to buy, lease or otherwise obtain goods
or services from participating merchants (including transactions you initiate by
mail, telephone or over the Internet), or take advantage of special promotional
Balance Transfer offers that post as Purchase transactions (“Purchases”). We will,
in connection with any promotional offer we make from time to time, provide
information on your Card carrier or in additional materials (the “Offer Materials”)
that explain whether those transactions will post and be treated as a Purchase.
Even if you have not signed a sales draft or the merchant has not supplied you
with a written receipt or other proof of sale, you are responsible for all Purchases
made through your Account, except as expressly limited by applicable law (see
Your Billing Rights section belo w for more details).
3. Advances: “Advances” are transactions other than Purchases that allow you
direct access to funds available through your Account. Advances may include
Account transactions such as cash advances you obtain directly from us,
automated teller machines (“ATMs”) or other participating financial institutions
(“Cash Advances”). ATM and financial institution Advances include phone
(automated phone system and 24 Hour customer service assisted) and Internet
transfers. Advances also include some Balance Transfers, Convenie nce Checks,
FastCash, Overdraft Protection Advances and Cash Equivalent Advances. “Cash
Equivalent Advances” include transactions to acquire or initiate wire transfers,
travelers checks, cashier’s checks, money orders, foreign cash transactions,
casino gaming and betting transactions and lottery tickets. Monthly Account
statements we issue may refer to Advances as an Advance, Cash, Cash
Advances, or by the product or device you used to obtain an Advance. Refer to
the Account Fees section for details on Advance Transaction Fees.

4. Advance Limits: Only a portion of the Credit Limit (defined below) is available
for Advances and that portion may vary from time to time. Although you may have
credit available under your Account, we may be unable to authorize an Advance.
You may contact Cardmember Service to learn the portion of your Credit Limit
which is available for Advances.
5. Convenience Checks: From time to time, we may supply Convenience Checks
for use by the person(s) or drawer named on those checks. “Convenience Checks”
are drafts that look like other checks, but are drawn on credit available in your
Account. Convenience Checks may not be offered for all Account types. We wil,
in connection with any Convenience Check we provide, include Offer Materials that
will explain whether the Convenience Check will post and be treated as an
Advance or as a Balance Transfer. Convenience Checks must be written in U.S.
Dollars. We may return a Convenience Check unpaid if:
(a) the credit available under your Credit Limit is less than the Convenience Check
amount;
(b) the Account is in Default; or
(c) the Convenience Check is improperly endorsed or otherwise fails to conform to
our regularly accepted standards for check payment.
Convenience Checks may not be used to pay your Account or any obligation you
owe us or our affiliates.
6. Paying and Stopping Payment on Convenience Checks: You must write to us
or call to request that payment be stopped on a Convenience Check. You must
call us promptly with an oral stop payment request and then provide us with a
written confirmation of the stop payment request within 14 calendar days. Any
written stop payment request we receive will remain in effect for 6 months, unless
you renew the request in writing before the end of that time. We may pay
Convenience Checks more than 6 months old. There may be circumstances under
which a Convenience Check must be paid, even if we have received a stop
payment request from you. We will not be liable to you if we do not honor your stop
payment request underthose circumstances. If it is determined that a Convenience
Check should have been paid, but was not, we will not be liable for any
consequential, punitive or incidental damages if we acted in good faith. Our only
obligation under those circumstances will be to pay the designated payee the
amount of the Convenience Check and cancel any charges assessed again st your
Account as a result of any wrongful failure to honor the Convenience Check.
7. Balance Transfers: We may permit you to transfer balances and obligations that
you owe other companies or financial institutions to your Account, subject to the
terms and conditions disclosed in the Offer Materials (“Balance Transfers”).
Balance Transfers will post to your Account and be separately reflected on monthly
Account statements as a Balance Transfer, or, depending upon the offer, may post
to the Account and be treated as a Purchase or an Advance. We will, in connection
with any Balance Transfer offer we make, provide you with materials that explain
how the Balance Transfer will post to your Account and be reflected on monthly
Account statements. You may not request Balance Transfers on existing
obligations you owe us or our affiliates. If you request a Balance Transfer that
would cause your Account to exceed its Credit Limit, we may, at our option, (a)
post the entire Balance Transfer requested to your Account; (b) post only a portion
of the Balance Transfer requested to your Account up to the amount of credit
available under the Credit Limit; or (c) refuse to process the entire amount of the
Balance Transfer requested.

8. U.S. Bank Overdraft Protection: This section is part of the Agreement only if you
have specifically requested and have obtained an Overdraft Protection Plan by
linking the Account with a designated U.S. Bank personal checking account
("checking account"). An "Overdraft Protection Advance" is an advance of funds
to your designated checking account from this Account that will help cover
overdrafts on your checking account. Any Overdraft Protection Advance will post
and be charged interest as an Advance drawn on the Account. Please refer to the
U.S. Bank Deposit Account Agreement (entitled, "Your Deposit Account
Agreement") for full Overdraft Protection Plan terms and the Consumer Pricing
Information Brochure for fees that apply for Overdraft Protection Advances. We
may cancel Overdraft Protection privileges under the Account, even if the Account
remains open for other purposes.
Note: For Young Adult Accounts, the young adult’s name and cosigner’s name
must both be named on the linked checking account in order to have Overdraft
Protection.
INTEREST CHARGES AND ACCOUNT FEES
9. Account INTEREST CHARGES: INTEREST CHARGES reflect the cost of
credit. Your total INTEREST CHARGE for any billing cycle will equal the amount
of any (a) periodic rate INTEREST CHARGES (sometimes referred to as "interest"
in this Agreement and on monthly Account statements); (b) Advance Transaction
Fees; and (c) any other transaction fees that are considered INTEREST
CHARGES.
10. Interest Rate: In this Agreement, we have abbreviated the terms “daily
periodic rate” as DPR, “average daily balance” as ADB, and “ANNUAL
PERCENTAGE RATE” as APR.
(a) Standard Interest Rates- Rate for "Purchases" and "Balance Transfers": The
DPR for transactions posting as Purchases and Balance Transfers is equal to
1/365th of its corresponding APR. Rate for "Advances": The DPR and
corresponding APR for transactions posting to the Account as Advances is equal
to 1/365th of its corresponding APR.
(b) Your Variable APRs are calculated by adding a margin to the Index. Your
Variable DPR is equal to 1/365th of the corresponding APR. Your DPR and
corresponding APR may increase or decrease from time to time according to the
movements up or down of the Index, which is the Prime Rate published in the
"Money Rates" section of the Midwest Edition of The Wall Street Journal on the
last publication day before the date on which the billing cycle closed (in other
words, the "statement date"). We reserve the right to choose a comparable new
index if The Wall Street Journal ceases to publish a Prime Rate. The margin is the
percentage we add to the Index to calculate the APR. The current applied Index
value for your Account is 3.25%. Any variable rate adjustment based on a change
to your margin will be effective as of the first day of the current billing cycle, and
will apply to all new Account balances and transactions subject to that variable
rate. Any variable rate adju stment based on a change to your Index will be effective
as of the first day of the current billing cycle, and will apply to all new and
outstanding Account balances and transactions subject to that variable rate. An
increase or decrease to the Index or margin will apply to Purchase, Advance, and
Balance Transfer balances and will result in an increase or decrease in the
INTEREST CHARGE on the Account, an increase or decrease to your Minimum
Payment, and an increase or decrease to your New Balance.
Introductory and Promotional Rates: We may, at our option, offer you for a
limited time introductory or promotional interest rates for all or part of new
Purchase, Advance, or Balance Transfers posted to your Account. We will tell you
in the Offer Materials the introductory or promotional rate and the period of time
during which that rate will be in effect and any conditions or requirements of the
offer. Unless the Offer Materials state otherwise, an introductory or promotional
rate will remain in effect until the last day of the billing cycle in which the
introductory or promotional rate expires. Any introductory or promotional rate that
applies to new or outstanding Account bala nces will increase to the standard rate
that would otherwise apply, or, when appropriate under the terms of this
Agreement, a Penalty Rate due to an Adjustment Event (as indicated above).
11. INTEREST CHARGE; Method of Computing Balance Subject to Interest Rate:
We calculate the periodic rate or interest portion of the INTEREST CHARGE by
multiplying the applicable DPR by the ADB (including new transactions) of the
Purchase, Advance and Balance Transfer categorie s subje ct to interest, and then
adding together the resulting interest from each category. We determine the ADB
separately for the Purchases, Advances and Balance Transfer categories. To get
the ADB in each category, we add together the daily balances in those categories
for the billing cycle and divide the result by the number of days in the billing cycle.
We determine the daily balances each day by taking the beginning balance of
those Account categories (including any billed but unpaid interest, fees, credit
insurance and other charges), adding any new interest, fees, and charges, and

subtracting any payments or credits applied against your Account balances that
day. We add a Purchase, Advance or Balance Transfer to the appropriate
balances for those categories on the later of the transaction date or the first day of
the statement period. Billed but unpaid interest on Purchases, Advances and
Balance Transfers is added to the appropriate balances for those categories each
month on the statement date. Billed but unpaid Advance Transaction Fees are
added to the Advance balance of your Account on the date they are charged to
your Account. Any billed but unpaid fees on Purchases, credit insurance charges,
and other charges are added to the Purchase balance of the Account on the date
they are charged to the Account. Billed but unpaid fees on Balance Transfers are
added to the Balance Transfer balance of the Account on the date they are charged
to the Account. In other words, billed and unpaid interest, fees, and charges wil
be included in the ADB of your Account that accrues interest and will reduce the
amount of credit available to you. To the extent credit insurance charges, overlimit
fees, Annual Fees, and/or Travel Membership Fees may be applied to your
Account, such charges and/or fees are not included in the ADB calculation for
Purchases until the first day of the billing cycle following the date the credit
insurance charges, overlimit fees, Annual Fees, and/or Travel Membership Fees
(as applicable) are charged to the Account. Prior statement balances subje ct to an
interest-free period that have been paid on or before the payment due date in the
current billing cycle are not included in the ADB calculation. There may be a
minimum INTEREST CHARGE Fee in any billing cycle in which an INTEREST
CHARGE is due. As described above, this Agreement provides for the
compounding of interest on your Account.
12. Paying Interest: You have a 24 to 30 day interest-free period for Purchases
provided you have paid your previous balance in full by the Payment Due Date
shown on your monthly Account statement. In order to avoid additional INTEREST
CHARGES on Purchases, you must pay your new balance in full by the Payment
Due Date shown on the front of your monthly Account statement. There is no
interest-free period for transactions that post to the Account as Advances or
Balance Transfers except as provided in any Offer Materials. Those transactions
are subject to interest from the date they post to the Account until the date they
are paid in full.
13. Advance Account Fees: You agree to pay the following Account fees and
INTEREST CHARGES:
(a) We may add an Advance Transaction Fee INTEREST CHARGE to the
Advance balance of the Account for each Advance you obtain during a billing
cycle in addition to the interest that accrues on Advances. The Advance
Transaction Fee imposed will equalthe greater of either a percentage of each
Advance or the minimum dollar amount, subject to the maximum dollar
amount.
(b) We may add a Balance Transfer Fee INTEREST CHARGE to the
Purchase balance of the Account except where Offer Materials specify
otherwise.
(c) We may add a Convenience Check Fee INTEREST CHARGE to the
Advance balance of your Account except where Offer Materials specify
otherwise.
(d) We may add an Overdraft Fee INTEREST CHARGE to the Advance
balance of your Account, except where Offer Materials specify otherwise.
14. Account Fees:
(a) We may add a Promotional Discount Transaction Fee INTEREST
CHARGE for each Promotional Discount you receive during the billing cycle,
as outlined in any Offer Materials
(b) Annual Membership Fee. Each year, the Account may be subject to your
payment in advance of an Annual Membership Fee INTEREST CHARGE
which will compensate us for maintaining and servicing the Account for the
following year. This fee will be charged to the Purchase balance of your
Account.
(c) We may add a Late Payment Fee to the Purchase balance of the Account
if your Minimum Payment is not received by the Payment Due Date shown
on the monthly Account statement.
(d) There is no Overlimit Fee on your Account.
(e) We may add a Returned Payment Fee to the Purchase balance of the
Account if any payment on the Account is not honored or if we must return it
to you because it cannot be processed. A check that is returned unpaid wil
be sent for collection.
(f) We will add a Duplicate Documentation Fee to the Purchase balance of
the Account for each copy of a monthly statement, sales slip, refund slip, or
Advance slip that you request. There will be no charge for documentation
requests made in connection with a billing error notice, if our investigation
indicates a billing error occurred.
(g) We may add a service charge to the Purchase balance of the Account if
you call us to make a payment on your Account and are assisted by a
Cardmember Service Representative to make the payment. You will be

provided with confirmation of the service charge before the payment
transaction is authorized.
(h) We may add a Stop Payment Check Fee to the Purchase balance of your
Account if you request a stop payment on a Convenience Check. (See
"Paying and Stopping Payment on Convenience Checks" section above for
more details.)
Under no circumstances will your Late Payment Fee or Returned Payment Fee
ever be greater than your Minimum Payment due and under no circumstance wil
your Overlimit Fee ever be greater than the amount your balance is overlimit.
IMPORTANT INFORMATION ABOUT USING YOUR ACCOUNT
15. BalanceShield or Insurance Charges: Your purchase of BalanceShield debt
cancellation or credit life insurance and disability is optional. Whether or not you
purchase BalanceShield or credit insurance will not affect your application for
credit or the terms of any existing credit agreement you have with us. If you elect
to purchase BalanceShield or credit insurance and are elig ible to participate, the
monthly program fee or premium (at the rate disclosed to you) will be added to the
Purchase balance as of the closing date of each billing cycle based upon the
Account balance (including accrued INTEREST CHARGES). The terms of your
BalanceShield coverage will be summarized in the BalanceShield Debt
Cancellation Program Agreement, which will be provided to you upon enrollment.
For credit insurance, the terms of your insurance coverage will be summarized in
the Certificate of Insurance, which will be provided to you. These features are not
offered for Secured Accounts.
16. Credit Limit: The Account Credit Limit is the maximum amount of credit
available under the Account at any time. Under certain circumstances, your
Account may exceed the Credit Limit and you will be responsible for the full amount
of the Credit Limit as well as any amounts owed that exceed the Credit Limit,
including fees and INTEREST CHARGES. You may not request or obtain
additional Advances or Balance Transfers once you have reached your Credit
Limit. The initial Credit Limit is shown on the Card carrie r and will also appear on
your monthly Account statements. We reserve the right to review your Account at
any time and increase or decrease your Credit Limit. Cosigner consent is required
for Credit Limit increases. You may not increase your Credit Limit by carrying credit
balances over the Credit Limit we make available to you. (Also see the “Advance
Limits” section above for more information about limits on Cash Advance, Cash
Equivalent Advance and telephone transfer transactions).
17. Payment: You must pay us in U.S. Dollars with checks or similar payment
instruments drawn on a financial institution located in the United States. We will
also accept payment in U.S. Dollars via the Internet or phone or previously
established automatic payment transaction. We may, at our option, choose to
accept a payment drawn on a foreign financial institution. However, you will be
charged and agree to pay any collection fees required in connection with such a
transaction. The date you mail a payment is different than the date we receive that
payment. For purposes of this Agreement, the payment date is the day we receive
your check or money order at the address specified on your monthly Account
statement or the day we receive your electronic or phone payment. If you mail
your payment without a payment coupon or to an incorrect address, it may result
in a delayed credit to your Account, additional INTEREST CHARGES, fees, and
possible suspension of your Account.
18. Minimum Payment: Each month, you must pay at least the Minimum Payment
and any past due Minimum Payment(s) by the Payment Due Date shown on your
monthly Account statement. You may, at your option, pay more than the Minimum
Payment or pay the New Balance (as stated on your monthly Account statement)
in full to reduce or avoid the INTEREST CHARGE for the Account. Your Minimum
Payment will be calculated as follows: first we determine the “Base Minimum
Payment,” which is the greater of $30.00 or 1% of your New Balance not including
items (1) and (2) below, which, if not a whole dolla r amount, will be rounded to the
next highest dollar. To the Base Minimum Payment, we may add one or more of
the following items, as incurred on your Account: (1) any late, annual and/orany
other Account related fee, (2) the INTEREST CHARGE, and (3) if your Account is
over the Credit Limit, some or all of the balance amount over your Credit Limit. If
the resulting Minimum Payment is greater than $30.00, the total, if not a whole
dollar amount, is then rounded to the next highest dollar not to exceed yourNew
Balance. Any Minimum Payment or additional amount you pay each month wil not
prepay any future Minimum Payments required, or change your obligation to make
at least a Minimum Payment by the Payment Due Date. Any statement credit that
results from a promotional offer or rewards redemption, if applicable, will only be
applied to the Account balance and not satisfy any portion of the Minimum
Payment requirements for this Account.

19. Payment Application: If we cannot collect on your check or other payment item
you send us to pay on your Account, we may post as an Advance transaction an
amount equal to the credit previously given to you for such check or payment item
and we may charge interest on this amount from the date your Account originally
was credited for the payment. After a payment has been made, we reserve the
right to withhold available credit in the amount of the payment for 7 business days.
Any credit available before the payment is made will continue to be available for
use during this time.
20. Skip Payment Option: We may, at our option, occasionally offer you an
opportunity to skip your obligation to make the Minimum Payment due. You may
not skip payments unless we make this offer to you. If we offer you an opportunity
to skip a payment more than once in a 12 month period, you will not be permitted
to skip payments required in consecutive months. You cannot accept a skip
payment offer if your Account is delinquent, or is in Default. When you take
advantage of a skip payment offer, the interest will continue to accrue on the entire
unpaid balance of your Account.
21. Change of Address: Your monthly Account statements and notices about your
Account will be sent to the address you provided in your application or your
response to our Account solicitation. To change your address, you must call or
write to us. We must receive this information 21 days before the date a billing cycle
closes to provide your monthly Account statement at your new address. If you
have an address change within 45 days of the expiration date of your Card(s),
please contact Cardmember Service with your new address so your new Card(s)
can be mailed to your new address. We may also update your address in our
records without a request from you if we receive an address change notice from
the U.S. Postal Service or if we receive updated address information from our mail
services vendor.
22. Authorized Users: You agree not to allow access to your Card, Account
number, Convenience Checks, or personal identification number (PIN) to anyone
else to use your Account, except by asking us to issue a card to grant Account
access to another person. If you allow access to your Card or Account information,
you will be liable for any charges made by that person, unless and except as
expressly required by applicable law. You agree to be responsible for all Account
transactions made by a Cardmember, or anyone who you have authorized by (a)
asking us to issue a Card to grant Account access to another person; (b) lending
your Card to or allowing Account access by another person; or (c) any other way
in which you would be legally considered to have allowed another person to use
your Account or to be legally prevented from denying that you did so. Be cautious
when allowing another person to become an authorized user of your Account; once
you allow authority to any authorized user you cannot limit that authority unless the
Account is closed to future transactions. You, as a primary or joint Cardmember
must call or write us with any request to cancel and remove a person’s authority.
We will not provide any Account information to anyone other than you and any
Authorized Users. Authorized Users have no right to make any Account changes.
23. Lost or Stolen Card or Other Information: You must notify us immediately by
telephone or in writing if your Card, Convenience Checks, or PIN is lost or stolen
or there is possible unauthorized use of your Card, Account, or PIN. You will not
be liable for unauthorized use of your Account. If this happens, we will ask you
and all other persons given Account access to return all Cards and unused
Convenience Checks to us. In addition, we have the right to close your Account
and open a new Account. If we do so, new Cards will be issued. If requested, we
may issue a new PIN and new Convenience Checks for your new Account.
24. Using Your Card for International Transactions:
Visa: You may use your Card for retail Purchases at foreign merchants and for
cash withdrawals from foreign ATMs. Some merchant and ATM transactions, even
if you and/or the merchant or ATM are located in the United States, are considered
foreign transactions under the applicable rules, in which case we will add the
Foreign Transaction Fee INTEREST CHARGE described in the addendum to
those transactions. We do not control how these merchants, ATMs, and
transactions are classified for this purpose. The exchange rate in effect when the
transaction is processed may differ from the rate in effect on the date of the
transaction or the date of the posting of the transaction to your Account.
If you use your Card at a merchant or an ATM that bears the Visa logo (and no
PLUS System logo), the transaction will be processed through the Visa system
and will be converted to U.S. Dollars according to the applicable rules established
by Visa from time to time. Currently, the currency conversion rate used by Visa to
determine the foreign currency transaction amount in U.S. Dollars is determined
by multiplying the amount of the foreign currency transaction times (a) a rate
selected by Visa from the range of rates available in wholesale currency markets
for the applicable central processing date, which rate may vary from the rate Visa
itself receives, or (b) the government-mandated rate in effect for the applicable

central processing date. If your foreign transaction is in foreign currency prior to
being processed by Visa, we will add a Foreign
Transaction Fee INTEREST CHARGE of up to 3.00% of the Purchase transaction
or up to 3.00% of the ATM transaction. If your foreign transaction is in or converted
to U.S. Dollars prior to being processed by Visa, we will add a Foreig n Transaction
Fee INTEREST CHARGE of up to 3.00% of the Purchase transaction or up to
3.00% of the ATM transaction. If you use your Card at an ATM that bears only the
PLUS System logo (and no Visa logo), the transaction will be processed through
the PLUS System and will be converted into U.S. Dollars at the exchange rate
established, from time to time, by the operator of that ATM. To the converted
transaction we will not add a Foreign Transaction Fee INTEREST CHARGE. If
you use your Card at an ATM that bears both the Visa and PLUS System logos,
the ATM operator will determine whether to send your transaction over the Visa or
PLUS System network using such network's respective currency conversion rules
then in effect (as explained above).
Mastercard: You may use your Card for retail Purchases at foreig n merchants and
for cash withdrawals from foreign ATMs that bear either the PLUS System orthe
Mastercard logo. Some merchant and ATM transactions, even if you and/or the
merchant or ATM are located in the United States, are considered foreign
transactions under the applicable Mastercard rules, in which case we will add the
Foreign Transaction Fee INTEREST CHARGE described in this section to those
transactions. We do not control how these merchants, ATMs, and transactions
are classified for this purpose. The currency conversion rate in effect on the
processing date may differ from the rate that would have been used on the date of
the transaction or the date of the posting of the transaction to your Account.
If you effect a transaction at a merchant or an ATM that bears the Mastercard logo
(and no PLUS System logo) with your Mastercard Card in a currency other than
U.S. Dollars, Mastercard International Incorporated will convert the transaction into
a U.S. Dollar amount using its currency conversion procedure, which is disclosed
to institutions that issue Mastercard cards. Currently, the currency conversion rate
used by Mastercard International to determine the foreign currency transaction
amount in U.S. Dollars for such transactions is generally either a government
mandated rate or a wholesale rate determined by Mastercard International for the
processing cycle in which the transaction is processed. If your foreign transaction
is in foreign currency prior to being processed by Mastercard, we will add a Foreign
Transaction Fee INTEREST CHARGE of up to 3.00% of the Purchase transaction
or up to 3.00% of the ATM transaction. If your foreign transaction is in or converted
to U.S. Dollars prior to being processed by Mastercard, we will add a Foreign
Transaction Fee INTEREST CHARGE of up to 3.00% of the Purchase transaction
or up to 3.00% of the ATM transaction.
If you use your Card at an ATM that bears only the PLUS System logo (and no
Mastercard logo), the transaction will be processed through the PLUS System and
will be converted into U.S. Dollars at the exchange rate established, from time to
time, by the operator of that ATM. To the converted transaction we will add a
Foreign Transaction Fee INTEREST CHARGE.
If you use your Card at an ATM that bears both the Mastercard and PLUS System
logos, the ATM operator will determine whether to send your transaction overthe
Mastercard or PLUS System network using such network’s respective currency
conversion rules then in effect (as explain ed above).
YOUR LEGAL RESPONSIBILITY IN THIS AGREEMENT
25. Responsibility to Pay: You agree to pay us for all Purchases, Advances,
Balance Transfers, INTEREST CHARGES, Account Fees and charges, any other
transaction charges as provided in this Agreement and, to the extent permitted
under applicable law, attorneys fees and collection costs we incur enforcing this
Agreement against you. This is the case even if your Account is only used by one
of you, or is used by someone authorized by only one of you. If there is more than
one Cardmember, each of you is responsible, together and separately, for the full
amount owed on your Account. Your obligation to pay the Account balance
continues even though an agreement, divorce decree, court judgment, or other
document to which we are not a party may direct another person responsible to
pay the Account.
26. Intent to Repay: Every time you use your Account, you represent to us that you
intend to and have the ability to repay your Account obligations. We rely on this
representation every time you use your Account.
27. Settling a Disputed Balance; Payment in Full: If you want to settle a
disagreement with us about any amount you owe by sending a check on which
you have written "Payment in Full" or similar la nguage, you must send us a written
explanation of the disagreement or dispute and any such check to Cardmember
Service. (See Your Billing Rights section belo w for comple te details.) This address

is different than the address you use to make Account payments. Writing “Payment
in Full” or similar language on the check will not be enough to resolve the dispute.
If we collect a check or any payment instrument marked “Payment in Full” that you
sent to an address other than the one provided in the Cardmember Agreement
issued with your Card (such as the address at which you normally make
payments), we will not have waived our right to collect any remaining amount you
owe us under the terms of your Account.
28. Default: You and your Account will be in Default if:
(a) we do not receive the Minimum Payment by the Payment Due Date
disclosed on the monthly Account statement;
(b) you violate any other provision of this Agreement;
(c) you die without a surviving joint Cardmember;
(d) you become insolvent, assign any property to your creditors, or go into
bankruptcy or receivership;
(e) you have made false statements on your Account application or in the
maintenance of your Account;
(f) we have any reason to believe that your Account is in danger of, or is
being used for fraud;
(g) you are a married community property state resident and you or we
receive a written termination notice of this Agreement from your spouse;
(h) your Account becomes inactive;
(i) anything happens that we believe in good faith materially increases the
risk that you will not live up to your payment and other oblig ations under this
Agreement; or
(j) this is a joint Account and one of you notifies us that he or she wants the
Account closed or will no longer be liable on the Account.
You and your Account may also be in Default if you make transactions which go
over your Credit Limit.
29. Illegal Purchases: You agree that you will not use or permit an Authorized User
to use the Card or Account for any unlawful purpose, such as funding any account
that is set up to facilitate online gambling.
OUR LEGAL RIGHT TO CHANGE OR CANCEL THIS AGREEMENT
30. Ownership of this Account: Your Card and any other Account access devices
that we supply to you are our property and must be immediately returned to us or
our designated agent or otherwise destroyed or surrendered as we instruct.
31. Changes to your Account: Account and Agreement terms are not guaranteed
for any period of time; we may change the terms of your Agreement, including
APRs and fees, in accordance with applicable law and the terms of your
Agreement. Your transactional experie nce with us may also cause a change,
including an increase in the margin that is added to the Index, an increase in fees,
or a decrease in the Credit Limit. Factors considered in determining the increased
rate or Credit Limit decrease may include your general credit profile, existence,
seriousness and timing of the defaults under any agreement that you have with us,
and other indications of the Account usage and performance. We will give you
notice of any such change in the manner required by law. Revised Account terms
apply as of the effective date communicated in our notice to you unless the notice
provides you with the right to opt out, and you do opt out, before the effective date.
32. Cancellation of Your Account: We may cancel your Account or suspend your
ability to obtain Account credit immediately, without notice, if your Account is in
Default. Even if you are not in Default, we may cancel your Account by providing
notice to you. You may cancel your Account by notifying us by telephone or in
writing. If you have a secured Account, your termination request must be made in
writing. If this is a joint Account, we will honor a request by either of you to cancel
the Account. After the Account is cancelled, you will not be able to obtain additional
Account credit, except that, (a) the Account may continue to receive recurring
charges for items and services until you contact and cancel delivery with the
company providing the item or service, or (b) under certain circumstances if you
use your Account for a transaction, the transaction may be posted to your Account.
After your Account is cancelled, all amounts outstanding on your Account wil be
due and payable without notice or demand from us. You must cut all Cards and
Convenience Checks in half and return them to us. If you do not pay the amount
you owe under this Agreement, you will be liable for our collection costs including
our reasonable attorney fees and expenses of legal actions, to the extent permitted
by applicable law.
33. Assignment of Your Account to Another Creditor: We may assign, sell or
transfer your Account and amounts owed by you to another creditor at any time. If
we do, this Agreement will still be in effect unless and until amended, and any
references made in this Agreement to “we”, “us”, or “our” will refer to the creditor
to which we assigned, sold or transferred your Account or amounts owed under

your Account. You may not delegate your obligations and responsibilities to us to
any third party without our express written consent.
THE ISSUER’S LEGAL RIGHTS AND OBLIGATIONS
34. Collecting Credit Information about You: You authorize us to make any credit,
employment and investigative inquiries we feel are appropriate related to giving
you credit or collecting amounts owed on your Account. You agree that a consumer
credit report may be requested periodically from one or more consumer reporting
agencies (“Credit Bureaus”) and used in connection with your application and any
update, renewal or extensio n of credit. We will provid e in formation about you, your
Account or your credit history to Credit Bureaus and others who may properly
receive that information.
35. Credit Bureau Disputes: If you believe we inaccurately reported credit history
information about you or your Account to a Credit Bureau, write to the Consumer
Recovery Department, Attn.: CBR Disputes, P.O. Box 108, St. Louis, MO 631669801.
36. Privacy Pledge and Disclosure of Account Information: A copy of our Privacy
Pledge was included with your original Agreement. We also keep copies of our
Privacy Pledge in financial institution offices and post it on our web site. Our
Privacy Pledge describes how we collect, protect and use confidential financial and
other information about you and the circumstances in which we might share
information about you with members of our corporate family and with unaffiliated
third parties. Our Privacy Pledge also tells you how you can (a) limit the ways we
share certain kinds of information about you and (b) request corrections to the
information we maintain about you.
37. Refusal to Honor Transactions: We and our agents are not responsib le if
anyone refuses to honor your Card or a Convenience Check, or if authorization for
a particular transaction is not given. Although you may have credit available under
your Account, we may be unable to authorize credit for a particular transaction.
The number of transactions you make in one day may be limited, and the limit per
day may vary. These restrictions are for security reasons and as a result we cannot
explain the details of how this system works. If your Account is over the Credit
Limit or delinquent, authorization of credit for transactions may be declined. We
are not responsible for anything purchased with your Card or a Convenience
Check, except as expressly required by applicable law (see Your Billing Rights
section below for more details). You must return goods you purchased with the
Card or Account to the merchant and not to us.
38. Third Party Offers: From time to time, third parties may provide you with
benefits not related to the extensio n of Account credit. We are not liable for these
features, services and enhancements, as they are the sole responsibility of the
third party provider. We and/or a third party may add, change or delete entirely
these benefits without notice or liability to you, to the extent permitted by applicable
law. You agree to hold us harmle ss from any claims, actions or damages resulting
from your use of any of these features, services or enhancements, where permitted
by applicable law.
39. Monitoring and Recording Communications: You understand and agree that
we, and anyone acting on our behalf, may monitor and/or record any
communications between you, or anyone acting on your behalf, and us, or anyone
acting on our behalf, for quality control and other purposes. You also understand
and agree that this monitoring or recording may be done without any further notice
to you or anyone acting on your behalf. The communications that may be
monitored or recorded inclu de telephone calls, cellular or mobile phone calls, and
any other communications in any form.
40. Severability: If a court of competent jurisdiction finds any part of this Agreement
illegal or unenforceable, the remaining portions of the Agreement will remain in
effect as written after any such illegal or unenforceable portion is amended in
conformance with applicable law or, if necessary, voided.
41. Entire Agreement: This version of the web Agreement repla ces any previous
versions of the web Agreement. The Agreement, as modified by any change in
terms we may deliver from time to time in accordance with applicable law,
constitutes the entire agreement between you and us, and supersedes any prior
negotiation, agreement, or understandin g between you and us concerning the
subject matter of the Agreement.
42. Waiver: We do not give up our rights under the Agreement or applicable law
when we fail to exercise or delay exercising those rights. Our failure or delay to
exercise any right or remedy we have against you does not mean that we waive
that right.
43. Arbitration Provision:

(a) You agree that either you or we can choose to have binding arbitration
resolve any claim, dispute or controversy between you and us that arises
from or relates to this Agreement or the Account and credit issued
thereunder (individually and collectively, a "Claim"). This does not apply to
any Claim in which the relief sought is within the jurisdictional limits of, and
is filed in, a small claims court. If arbitration is chosen by any party, the
following will apply:
(1) NEITHER YOU NOR WE WILL HAVE THE RIGHT TO LITIGATE A
CLAIM IN COURT OR TO HAVE A JURY TRIAL ON A CLAIM, OR TO
ENGAGE IN PRE-ARBITRATION DISCOVERY, EXCEPT AS PROVIDED
FOR IN THE APPLICABLE ARBITRATION RULES.
(2) Arbitration will only decide our or your Claim, and you may not
consolidate or join the claims of other persons who may have similar
claims. YOU WILL NOT HAVE THE RIGHT TO PARTICIPATE AS A
REPRESENTATIVE OR MEMBER OF ANY CLASS OF CLAIMANTS, OR
AS A PRIVATE ATTORNEY GENERAL, PERTAINING TO ANY CLAIM
SUBJECT TO ARBITRATION.
(3) The arbitration will be performed in accordance with this Arbitration
Provision and the rules of the chosen arbitrator in effect when the
Claim is filed.
(4) The arbitrator’s decision will generally be final and binding, except
for the limited right of appeal provided by the Federal Arbitration Act.
(5) Other rights that you would have if you went to court might also
not be available in arbitration.
(b) The party commencing the arbitration may select to use either JAMS or
the American Arbitration Association ("AAA") (or, if neither of these
arbitration organizations will serve, then a comparable substitute arbitration
organization agreed upon by the parties or, if the parties cannot agree,
chosen by a court of competent jurisdiction). If JAMS is selected, the
arbitration will be handled according to its Streamlined Arbitration Rules
unless the Claim is for $250,000 or more, in which case its Comprehensive
Arbitration Rules shall apply. If the AAA is selected, the arbitration will be
handled according to its Commercial Arbitration Rules. You may obtain
rules and forms for JAMS by contacting JAMS at 1-800-352-5267 or
www.jamsadr.com and for the AAA by contacting the AAA at 1-800-778-7879
or www.adr.org. Any arbitration hearing that you attend will take place in the
federal judicial district where you reside. At your request, we will advance
your filing and hearing fees for any Claim you may file against us. If you
prevail on your Claim, we will pay your arbitration costs and fees, other than
attorney, expert and witness fees and expenses. We will also pay any fees
or expenses that applicable law requires us to pay. The arbitrator shall apply
applicable substantive law consistent with the Federal Arbitration Act, 9
U.S.C. §§ 1 through 16, including but not limited to applicable statutes of
limitation, and shall honor claims of privilege recognized at law. Judgment
upon the award rendered by the arbitrator may be entered in any court
having jurisdiction.
(c) This Arbitration Provision shall survive repayment of your extension of
credit and termination of your Account. This Arbitration Provision shall be
governed by federal law, including the Federal Arbitration Act, and by Ohio
law, without regard to its internal conflict of law principles, to the extent such
state law does not conflict with federal law or this Arbitration Provision. This
Arbitration Provision shall not apply to a party who is a covered borrower
under the Military Lending Act. Notwithstanding any language of this
Agreement to the contrary, should any portion of this Arbitration Provision
be held invalid or unenforceable by a court or other body of competent
jurisdiction, this entire Arbitration Provision shall be automatically
terminated and all other provisions of this Agreement shall remain in full
force and effect.
Federal law provides important protections to members of the Armed Forces and
their dependents relating to extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his or her dependent may
not exceed an annual percentage rate of 36 percent. This rate must include, as
applicable to the credit transaction or account: the costs associated with credit
insurance premiums; fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged (other
than certain participation fees for a credit card account). For a verbal transcript of
this disclosure, please call 1-877-292-1682.

YOUR BILLING RIGHTS

Keep this document for future use. This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement:
If you think there is an error on your statement, call or write to us.
In your letter or call, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is wrong.
What Will Happen After We Receive Your Letter or Call:
When we receive your letter or call, we must do two things:
1.
Within 30 days of receiving your letter or call, we must tell you that we
received your letter. We will also tell you if we have already corrected the
error.
2.
Within 90 days of receiving your letter or call, we must either correct the error
or explain to you why we believe the bill is correct. While we investigate
whether or not there has been an error:
•
We cannot try to collect the amount in question, or report you as
delinquent on that amount.
•
The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
•
While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
•
We can apply any unpaid amount against your Credit Limit.
After We Finish Our Investigation, One of Two Things Will Happen:
•
If we made a mistake, you will not have to pay the amount in question or any
interest or other fees related to that amount.

•

If we do not believe there was a mistake, you will have to pay the amount in
question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.

If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases:
If you are dissatisfied with the goods or services that you have purchased with your
Card, and you have tried in good faith to correct the problem with the merchant,
you may have the right not to pay the remaining amount due on the purchase. To
use this right, all of the following must be true:
1.
The purchase must have been made in your home state or within 100 miles
of your current mailing address, and the purchase price must have been
more than $50. (Note: Neither of these are necessary if your purchase was
based on an advertisement we mailed to you, or if we own the company that
sold you the goods or services.)
2.
You must have used your credit card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses your credit card
Account do not qualify.
3.
You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing. While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we may
report you as delinquent.
SPECIAL RULES FOR CREDIT CARD PURCHASES DO NOT APPLY TO
PURCHASES MADE WITH CONVENIENCE CHECKS OR BALANCE
TRANSFER CHECKS.
03_USB_CLASSIC_GOLD_PLAT

